No. 20-690
IN THE SUPREME COURT OF THE UNITED STATES
_________________
MICHAEL SANG HAN, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 18th day of February, 2021
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 6,271
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
February 18, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 18, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0690
HAN, MICHAEL S.
USA
KEVIN FRANZ KING
COVINGTON & BURLING LLP
ONE CITY CENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
202-662-5488
KKING@COV.COM

